                  Department of the Interior
                  Office of Inspector General




              Audit Report


               U.S. Fish and Wildlife Service
       Wildlife and Sport Fish Restoration Program
       Grants Awarded to the State of Rhode Island,
       Department of Environmental Management,
               Division of Fish and Wildlife,
        From July 1, 2005, Through June 30, 2007




Report No.
R-GR-FWS-0013-2008                     July 2009
                United States Department of the Interior
                             OFFICE OF INSPECTOR GENERAL
                              12030 Sunrise Valley Drive, Suite 230
                                      Reston, VA 20191

                                                                                      July 22, 2009

                                      AUDIT REPORT

Memorandum

To:        Director
           U.S. Fish and Wildlife Service

From:      Suzanna I. Park
           Director of External Audits

Subject:   Audit on U.S. Fish and Wildlife Service Wildlife and Sport Fish Restoration Program
           Grants Awarded to the State of Rhode Island, Department of Environmental
           Management, Division of Fish and Wildlife, From July 1, 2005, Through June 30,
           2007 (No. R-GR-FWS-0013-2008)

        This report presents the results of our audit of costs claimed by the State of Rhode Island
(State), Department of Environmental Management (Department), Division of Fish and Wildlife
(Division), under grants awarded by the U.S. Fish and Wildlife Service (FWS). FWS provided
the grants to the State under the Wildlife and Sport Fish Restoration Program (the Program).
The audit included claims totaling approximately $15.8 million on 46 grants that were open
during State fiscal years (SFYs) ended June 30 of 2006 and 2007 (see Appendix 1). The audit
also covered Division compliance with applicable laws, regulations, and FWS guidelines,
including those related to the collection and use of hunting and fishing license revenues and the
reporting of program income.

        We found that the Division complied, in general, with applicable grant accounting and
regulatory requirements. However, we questioned costs totaling $28,078 and found that hunting
and fishing license certifications were inaccurate; the indirect cost restrictive rate analysis was
not performed; and the equipment records management system was inadequate.

        Subsequent to our field work, on March 10, 2009, a fire at the Round Top Field
Headquarters destroyed everything in the compound, including equipment purchased with
Program funds. The Division was not insured against the equipment loss, estimated at $365,286
(federal share $273,965). While this loss occurred outside of our audit period, we believe that
the equipment loss may have a significant impact on the ability of the Division to successfully
perform future Program operations. Therefore, we suggest that the FWS monitor this issue.
      We provided a draft report to FWS for a response. We summarized the Department and
FWS Region 5 responses and provided our comments on the responses after the
recommendations. We list the status of each recommendation in Appendix 3.

        Please respond in writing to the findings and recommendations included in this report by
October 20, 2009. Your response should include information on actions taken or planned,
targeted completion dates, and titles of officials responsible for implementation.

      If you have any questions regarding this report, please contact the audit team leader,
Lawrence Kopas, or me at 703–487–5345.

cc:   Regional Director, Region 5, U.S. Fish and Wildlife Service




                                                2
                                                Introduction

Background
The Pittman-Robertson Wildlife Restoration Act and the Dingell-Johnson Sport Fish Restoration
Act (Acts)1 established the Wildlife and Sport Fish Restoration Program. Under the Program,
FWS provides grants to States to restore, conserve, manage, and enhance their sport fish and
wildlife resources. The Acts and federal regulations contain provisions and principles on eligible
costs and allow FWS to reimburse States up to 75 percent of the eligible costs incurred under the
grants. The Acts also require that hunting and fishing license revenues be used only for the
administration of the State’s fish and game agency. Finally, federal regulations and FWS
guidance require States to account for any income they earn using grant funds.

Objectives
Our audit objectives were to determine if the Division:

           claimed the costs incurred under the Program grants in accordance with the Acts and
           related regulations, FWS guidelines, and the grant agreements;

           used State hunting and fishing license revenues solely for fish and wildlife program
           activities; and

           reported and used program income in accordance with federal regulations.

Scope

Audit work included claims totaling approximately $15.8 million on the 46 grants that were open
during SFYs 2006 and 2007 (see Appendix 1). We report only on those conditions that existed
during this audit period. We performed our audit at Department headquarters in Providence, RI,
and Division headquarters in Wakefield, RI, and visited two field offices, two wildlife
management areas, one hatchery, six boating access facilities, a marine laboratory, and a target
range (see Appendix 2). We performed this audit to supplement, not replace, the audits required
by the Single Audit Act Amendments of 1996 and by Office of Management and Budget
Circular A-133.

Methodology
We performed our audit in accordance with the “Government Auditing Standards” issued by the
Comptroller General of the United States. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We tested records and conducted auditing procedures

1
    16 U.S.C. §§ 669 and 777, as amended, respectively.


                                                          3
as necessary under the circumstances. We believe that the evidence obtained from our tests and
procedures provides a reasonable basis for our findings and conclusions based on our audit
objectives.

Our tests and procedures included:

       examining the evidence that supports selected expenditures charged to the grants by the
       Division;

       reviewing transactions related to purchases, direct costs, drawdowns of reimbursements,
       in-kind contributions, and program income;

       interviewing Department and Division employees to ensure that personnel costs charged
       to the grants were supportable;

       conducting site visits to inspect equipment and other property;

       determining whether the Department used hunting and fishing license revenues solely for
       administration of the Department; and

       determining whether the State passed required legislation assenting to the provisions of
       the Acts.

We also identified the internal controls over transactions recorded in the labor and license fee
accounting systems and tested their operation and reliability. Based on the results of initial
assessments, we assigned a level of risk to these systems and selected a judgmental sample of
transactions recorded in these systems for testing. We did not project the results of the tests to
the total population of recorded transactions or evaluate the economy, efficiency, or effectiveness
of the Division’s operations.

Prior Audit Coverage
On May 19, 2005, we issued “Final Audit Report on the U.S. Fish and Wildlife Service Federal
Assistance Grants Administered by the State of Rhode Island, Department of Environmental
Management, Division of Fish and Wildlife, from July 1, 2001, through June 30, 2003”
(No. R-GR-FWS-0023-2004). We followed up on all recommendations in the report and found
that the Department of Interior, Office of the Assistant Secretary for Policy, Management and
Budget considered them to be resolved and implemented.

In addition, we reviewed the Comprehensive Annual Financial Reports and Single Audit Reports
of the State of Rhode Island for SFYs 2006 and 2007. None of these reports contained any
findings related to the Department’s administration of the Wildlife and Sport Fish Restoration
Program.




                                                4
                                      Results of Audit

Audit Summary
We found that the Division complied, in general, with applicable grant agreement provisions and
requirements of the Acts, regulations, and FWS guidance. However, we identified several
conditions that resulted in the findings listed below, including questioned costs totaling $28,078.
We discuss the findings in more detail in the Findings and Recommendations section.

           Questioned Costs. We questioned $28,078 because the Department used fringe
           benefit rates to calculate the value of in-kind contributions received during the grant
           period that exceeded actual rates used to compensate employees performing similar
           work.

            Free Licenses and Potential Duplicates Counted in the License Certification.
           The Division included free licenses in its certified count of hunting and fishing
           license sales and did not take steps to eliminate duplicate license holders from the
           count.

           Compliance with the 3 Percent Limitation on State Central Services Not
           Ensured. The Division had not adopted procedures to ensure it limited allocations
           for State central services to 3 percent of the State’s annual apportionment of Program
           funds.

           Inadequate Equipment Records Management System. The Division did not
           ensure that equipment acquired with Program funds or license revenues was
           accurately recorded and reconciled with the State’s accounting system or the
           Department’s personal property inventory system.

Findings and Recommendations
A.     Questioned Costs - $28,078

       Under the Wildlife and Sport Fish Restoration Program, States must use “State matching”
       (non-federal) funds to meet at least 25 percent of the costs incurred in performing
       projects under the grants. The State’s matching share of costs for aquatic resources
       education and hunter education programs was partially composed of non-cash (“in-kind”)
       contributions consisting of volunteer labor.

       As with costs claimed for reimbursement under the grant, the Department must support
       the value of the contributions claimed. The Department calculated the value of labor
       hours worked by multiplying wage rates (which included fringe benefits) by the hours the
       volunteer instructors donated. However, we found that the Department applied fringe
       benefit rates for in-kind services that were consistently higher than the actual rates used
       to calculate its employees’ fringe benefits.

                                                 5
The Code of Federal Regulations (C.F.R.) provides general documentation requirements
for in-kind contributions and guidance on calculating the value of the contributions.
According to 2 C.F.R. § 225, Appendix A, Subsection C.1.j, which outlines basic
guidelines on cost principles, costs must be adequately documented to be allowable under
federal awards. Furthermore, 43 C.F.R. § 12.64(c) states that unpaid services provided to
a grantee by individuals will be valued at rates consistent with those ordinarily paid for
similar work in the grantee’s organization, and a reasonable amount for fringe benefits
may be included in the valuation.

This issue arose because Department management was unaware that the fringe benefit
rates used to calculate the value of in-kind contributions were not consistent with rates
ordinarily used to compensate employees performing similar work. As a result, the
Division overstated the value of its in-kind contributions on the grant agreements listed
below, resulting in $28,078 in questioned costs (federal share).

                                         Grant Numbers and Amounts
           Description               F-42-E-20 W-31-S-32 W-31-S-33 Total
 Original Federal Share Claimed      $225,947    $226,224   $246,934
 Total Grant Outlays                  328,900       301,634      329,246
  Less: Unsupported In-Kind            28,361        16,571       20,145
         Contributions
 Revised Grant Outlays                300,539       285,063      309,101
 Allowable Federal Share                 75%           75%          75%
 Allowable Federal Amount             225,404       213,797      231,826
 Federal Share Questioned Costs          $543       $12,427      $15,108 $28,078

Recommendations

We recommend that FWS:

1. resolve the questioned costs totaling $28,078, and

2. ensure the Department uses fringe benefit rates to calculate the value of in-kind
   services that are consistent with rates ordinarily used to compensate employees
   performing similar work.

Department Response

Department officials will develop a fringe benefit rate at the beginning of each SFY
based on actual costs and use that rate for the in-kind contribution match.

FWS Response

FWS Regional officials reviewed and accepted the State’s response and proposed actions
to be taken. FWS will work closely with State personnel in the development and

                                         6
     implementation of a corrective action plan that will resolve and implement all of the audit
     findings and recommendations.

     OIG Comments

     Based on the Department and FWS responses, additional information is needed in the
     corrective action plan, including:

            the specific actions taken or planned to address the recommendations;

            targeted completion dates;

            titles of officials responsible for the specific actions taken or planned; and

            verification that FWS headquarters officials reviewed and approved of actions
            taken or planned by the Department.

B.   Free Licenses and Potential Duplicates Counted in the License Certification

     States provide a certified count of hunting and fishing license holders to FWS each year.
     According to federal regulations, only licenses that earn net revenue to the State may be
     certified. Based partly on that information, FWS determines the amount of grant funding
     to provide annually to each State. However, we found that:

            the Division’s certified count included free licenses issued to residents over the
            age of 65 and to persons regarded as “100 percent permanently disabled”; and

            the Division did not take steps to prevent the double-counting of individuals who
            purchased more than one license in a single year.

     According to 50 C.F.R. § 80.10(c)(2), licenses which do not return net revenue to the
     State shall be excluded from the annual certification to FWS. Net revenue is any amount
     returned to the State after deducting costs directly associated with the issuance of each
     license. Furthermore, 50 C.F.R. § 80.10(c)(5) prohibits an individual holding more than
     one license to hunt or fish to be counted more than once as a hunting or fishing license
     holder.

     These problems occurred because (1) Division management was not aware that free
     licenses should not be included in the annual certification and (2) the Division did not
     have a system in place to identify and eliminate duplicate license holders. As a result, the
     Division’s annual apportionments of grant funds may be larger than they should be.
     Specifically, for the license year ended February 28, 2007, the Division issued 695
     fishing and 260 combination licenses for free that were counted in its certification. The
     actual number of licenses could be overstated even further due to the Division’s inability
     to remove duplicate license holders.


                                              7
     Recommendations

     We recommend that FWS require the Division to:

     1. remove the free licenses and resubmit the certification for the license year ending
        February 28, 2007, and

     2. develop policies and implement procedures to eliminate free licenses and duplicate
        license holders from the final counts certified annually to FWS.

     Department Response

     The Department agreed with the finding and will remove the free licenses in future
     reports for 2008 and beyond. In addition, the Division will work with the office of
     licensing to develop policies and procedures to eliminate any free and duplicate licenses
     from the final counts certified annually to FWS.

     FWS Response

     FWS Regional officials reviewed and accepted the State’s response and proposed actions
     to be taken. FWS will work closely with State personnel in the development and
     implementation of a corrective action plan that will resolve and implement all of the audit
     findings and recommendations.

     OIG Comments

     Based on the Department and FWS responses, additional information is needed in the
     corrective action plan, including:

            the specific actions taken or planned to address the recommendations;

            targeted completion dates;

            titles of officials responsible for the specific actions taken or planned; and

            verification that FWS headquarters officials reviewed and approved of actions
            taken or planned by the Department.

C.   Compliance with the 3 Percent Limitation on State Central Services Not Ensured

     States allocate administrative costs for State-provided central services as an indirect cost
     across multiple grants and programs. The Acts limit indirect costs that States can allocate
     to Program grants for State central services. However, the Department did not perform
     an analysis to determine whether restricted indirect cost rates should be developed.
     Furthermore, neither the Department nor the Division had written policies or had
     implemented procedures to ensure compliance with the limitation requirement.

                                              8
FWS issued guidance on September 6, 2005, to ensure consistent compliance among the
States with the requirements of 50 C.F.R. § 80.15(e) and 2 C.F.R. § 225, Appendix E,
Subsection E.1. Under this guidance, if the State does not have a restricted rate, it must
establish procedures and document steps to ensure that when developing the indirect cost
rate, State central services costs are limited to 3 percent of the State’s annual
apportionment of Program funds.

The restrictive rate analysis was not conducted because Department personnel did not
receive guidance on how to perform the calculations after the retirement of the individual
originally assigned this task. In addition, when the State Budget Office provided the
Department with expenditure information needed for the analysis, it did not notate which
expenditures related to the Program grants as opposed to other federal grants. We were
therefore unable to determine whether the 3 percent limit for State central services costs
was exceeded in either SFY 2006 or 2007. As a result, the Division could have received
excess reimbursement for indirect costs.

Recommendations

We recommend that FWS require the Department to:

1. develop policies and implement procedures to ensure that common services costs are
   limited to no more than 3 percent of the annual apportionment of Wildlife and Sport
   Fish Restoration Program funds to the Division; and

2. determine whether the 3 percent limitation was exceeded for SFYs 2006 and 2007,
   and resolve any excess reimbursements.

Department Response

The Department concurred with recommendation C.1, stating that it will develop a policy
and implement procedures to ensure that the common services costs are limited to no
more than 3 percent of the annual apportionment of Wildlife and Sport Fish Restoration
Program funds.

In addition, the Department concurred with recommendation C.2, stating that it has
performed the necessary calculations for the 3 percent limitation of statewide cost
allocation for SFYs 2006 and 2007, and is in contact with FWS regional officials to
discuss the implementation of the recommendation.

FWS Response

FWS Regional officials reviewed and accepted the State’s response and proposed actions
to be taken. FWS will work closely with State personnel in the development and
implementation of a corrective action plan that will resolve and implement all of the audit
findings and recommendations.



                                         9
     OIG Comments

     Based on the Department and FWS responses, additional information is needed in the
     corrective action plan, including:

            the specific actions taken or planned to address the recommendations;

            targeted completion dates;

            titles of officials responsible for the specific actions taken or planned; and

            verification that FWS headquarters officials reviewed and approved of actions
            taken or planned by the Department.

D.   Inadequate Equipment Records Management System

     The Division did not ensure that equipment acquired with the Program funds or license
     revenues was accurately recorded in databases maintained by the State, Department, and
     Division. Specifically, the Division’s equipment records were not reconciled with the
     State’s accounting system or the State’s personal property inventory system. We also
     identified this issue in our prior audit.

      According to the State of Rhode Island, Department of Administration’s Fixed Assets
     Control and Tracking System (FACTS) Policies and Procedures Manual, the State is
     required to maintain adequate records to support the disposition of grant funds.
     Even though Division management stated that they had occasionally reconciled their
     equipment records with the State fixed asset system, we noted that (1) no staff person was
     assigned to maintain the equipment inventory records due to recent staff shortages, and
     (2) no formal process was in place to require a regular reconciliation. Inadequate
     controls over equipment place it at greater risk of being lost or used for unauthorized
     purposes.

     Recommendation

     We recommend that FWS require the Division to implement a process to regularly
     reconcile their records with (1) the State accounting system and (2) FACTS.

     Department Response

     The Department concurs with the recommendation. However, a Department official
     added that due to the continuous drain of personnel, existing work/projects must be
     prioritized. The Department will work with personnel at the Department of
     Administration to reconcile these systems.




                                              10
FWS Response

FWS Regional officials reviewed and accepted the State’s response and proposed actions
to be taken. FWS will work closely with State personnel in the development and
implementation of a corrective action plan that will resolve and implement all of the audit
findings and recommendations.

OIG Comments

Based on the Department and FWS responses, additional information is needed in the
corrective action plan, including:

       the specific actions taken or planned to address the recommendation;

       targeted completion dates;

       titles of officials responsible for the specific actions taken or planned; and

       verification that FWS headquarters officials reviewed and approved of actions
       taken or planned by the Department.




                                         11
                                                              Appendix 1
                                                                Page 1 of 2


                    STATE OF RHODE ISLAND
                DIVISION OF FISH AND WILDLIFE
           FINANCIAL SUMMARY OF REVIEW COVERAGE
              JULY 1, 2005, THROUGH JUNE 30, 2007
                                                    Questioned Costs
Grant Number    Grant Amount        Claimed Costs    (Federal Share)
F-10-D-54           $495,786           $464,381
F-10-D-55            491,921            509,265
F-20-R-46            180,750            176,261
F-20-R-47            186,990            200,338
F-20-R-48            212,533            182,431
F-26-R-40            250,267            170,287
F-26-R-41            217,733            214,938
F-26-R-42            179,200            223,132
F-42-E-19            305,417            314,910
F-42-E-20            311,450            328,900               $543
F-42-E-21            269,600            289,457
F-48-R-18            192,346            102,188
F-48-R-19            192,346            115,338
F-48-R-20            133,876              7,850
F-59-D-14          1,099,583          1,188,270
F-59-D-15          1,190,000          1,271,330
F-59-D-16          1,092,000          1,131,364
F-60-R-13            144,554            100,016
F-60-R-14            133,219            131,865
F-60-R-15            101,224             82,628
F-61-R-13            568,629            560,037
F-61-R-14            616,612            709,864
F-61-R-15            670,000            752,129
F-64-R-6             275,219            214,107
F-64-R-7             252,632            191,278
F-64-R-8             204,311            113,632
FW-8-C-57            338,733            313,958
FW-8-C-58            311,515            320,337
FW-8-C-59            312,685            314,495


                               12
                                                          Appendix 1
                                                             Page 2 of 2


                   STATE OF RHODE ISLAND
               DIVISION OF FISH AND WILDLIFE
          FINANCIAL SUMMARY OF REVIEW COVERAGE
             JULY 1, 2005, THROUGH JUNE 30, 2007

                                               Questioned Costs
 Grant Number   Grant Amount   Claimed Costs   (Federal Share)
FW-14-D-11          $920,000      $958,389
FW-14-D-13           806,555       136,030
FW-14-D-14            69,000        51,845
FW-14-D-15           100,000        94,562
FW-14-D-16           337,200             0
FW-14-D-17            79,600        16,637
FW-14-D-18         2,253,970       978,406
FW-14-D-19            71,980        46,552
FW-14-D-20           132,180       155,118
FW-14-D-21           254,800             0
W-22-D-50            532,731       498,971
W-22-D-51            740,000       657,655
W-23-R-49            390,604       383,920
W-23-R-50            478,850       415,465
W-23-R-51            449,962        96,516
W-31-S-32            395,900       301,634            $12,427
W-31-S-33            455,501       329,246             15,108
Totals          $19,399,964    $15,815,932            $28,078




                               13
                                                       Appendix 2



          STATE OF RHODE ISLAND
       DIVISION OF FISH AND WILDLIFE
               SITES VISITED

                   Headquarters
Department of Environmental Management, Providence
      Division of Fish and Wildlife, Wakefield

                   Field Offices
Fish and Wildlife Marine Fisheries Center, Jamestown
  Great Swamp Field Headquarters, West Kingston

           Wildlife Management Areas
                  Nicholas Farm
               Simmons Mill Pond

                     Hatchery
              Carolina Trout Hatchery

                    Boat Ramps
      Carbuncle Pond Freshwater Boat Ramp
       Colt State Park Salt Water Boat Ramp
    Haines Memorial Park Salt Water Boat Ramp
       Mt. Hope Bay Salt Water Boat Ramp
       Stafford Pond Freshwater Boat Ramp
     Wilson Reservoir Freshwater Boat Ramp

                Other Locations
         Fort Wetherill Marine Laboratory
           Great Swamp Target Range




                        14
                                                                                  Appendix 3


                                RHODE ISLAND
                DEPARTMENT OF ENVIRONMENTAL MANAGEMENT
                        DIVISION OF FISH AND WILDLIFE
               STATUS OF AUDIT FINDINGS AND RECOMMENDATIONS

  Recommendations                        Status                       Action Required
A.1, A.2, B.1, B.2, C.1,   FWS management concurs with        Additional information is needed
C.2, and D                 the recommendations, but           in the corrective action plan,
                           additional information is needed   including the actions taken or
                           as outlined in the “Actions        planned to implement the
                           Required” column.                  recommendations, targeted
                                                              completion date(s), and
                                                              verification that FWS officials
                                                              reviewed and approved of
                                                              actions taken or planned by the
                                                              State. We will refer
                                                              recommendations not resolved
                                                              and/or implemented at the end of
                                                              90 days (after October 20, 2009)
                                                              to the Assistant Secretary for
                                                              Policy, Management and Budget
                                                              for resolution and/or tracking of
                                                              implementation.




                                          15
 
